T\

C@OQCKLE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-283 | www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1199

STUDENTS FOR FAIR ADMISSIONS, INC.,
Petitioner,
v.
PRESIDENT AND FELLOWS OF HARVARD COLLEGE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF GAIL HERIOT AND PETER N. KIRSANOW, MEMBERS OF THE U.S. COMMISSION ON
CIVIL RIGHTS, IN THEIR CAPACITIES AS PRIVATE CITIZENS, IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5841 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &
RENEE J, GOSS 0. ( bes Lia - Ch G /
My Comm. Exp. September 5, 2023

  

 

   

Notary Public Affiant 40801
